No. 20-330

IN THE

SUPREME COURT OF THE UNITED STATES
DONALD J. TRUMP, PRESIDENT OF THE UNITED STATES, PETITIONER
v.
CITIZENS FOR RESPONSIBILITY AND ETHICS IN WASHINGTON, ET AL.,
RESPONDENTS
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Second Circuit
CERTIFICATE OF WORD COUNT COMPLIANCE
Robert W. Ray, a member of the Bar of this Court and an attorney for
amicus, pursuant to Rule 33.1(h), hereby certifies that the Motion for Leave to File
Amicus Curiae Brief and the Amicus Curiae Brief in support of the Petitioner, of
Scholar Seth Barrett Tillman and the Judicial Education Project complies with the
pertinent word limitations identified at Rule 33.1(g)(x). According to the word count
of the word-processing system used to prepare the document, the motion contains 384
words and body of the brief, including footnotes (but exclusive of all material
preceding the Interest of Amicus and all material following the last word of the text
of the Conclusion), contains 5,457 words.
/s/ Robert W. Ray
ROBERT W. RAY
Counsel of Record
Zeichner Ellman & Krause LLP
1211 Avenue of the Americas, 40th Fl.
New York, New York 10036
(212) 826-5321
rray@zeklaw.com

